1a
APPENDIX A
DECISION, NO. 18-30705 (5TH CIR. APR. 26,
2019)
FILED
April 26, 2019
Lyle W. Cayce
Clerk
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT
___________
No. 18-30705
Summary Calendar
___________
SEANTREY MORRIS,
Plaintiff - Appellant
v.
JOSEPH MEKDESSIE; BRANDON LEBLANC;
DANIEL SWEARS; ARTHUR S. LAWSON, in his
official capacity as Chief of Police, City of Gretna
Police Department; GRETNA CITY,
Defendants - Appellees

2a
_____________________
Appeal from the United States District Court
For the Eastern District of Louisiana
USDC No. 2:14-CV-1741
_____________________

3a
Before JOLLY, COSTA, and HO, Circuit Judges.
GREGG COSTA, Circuit Judge: ∗
Appeals in excessive force cases usually ask us to
decide whether there is sufficient evidence to
overcome qualified immunity and allow the case to
be tried. This appeal is different because the main
excessive force claim, which challenges police use of
a taser, survived summary judgment and went to a
jury. The jury found for the officer. That verdict flips
how we normally construe the evidence in excessive
force appeals; we must now view the evidence and all
reasonable inferences in the officer’s favor. That
dooms the challenge to the verdict. We also see no
basis to overturn the district court’s pretrial
dismissal of other claims against other defendants.
I.
Officer Joseph Mekdessie of the Gretna Police
Department pulled up behind Seantrey Morris at a
red light and noticed an expired brake tag (the tag is
proof of the vehicle’s inspection). After the light
turned green, Mekdessie says he saw the car
speeding. Mekdessie pulled the car over. Morris
struggled at first to find his proof of insurance and
registration and, when he did, he exited his vehicle
to show them to Mekdessie. Mekdessie ordered
Morris to wait while he completed paperwork, so
Pursuant to 5th Cir. R. 47.5, the court has determined
that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5th Cir.
R. 47.5.4.
∗

4a
Morris returned and remained beside his car.
Mekdessie then returned with tickets for speeding
and operating a vehicle with an expired brake tag.
Mekdessie asked Morris to sign the tickets.
When Morris asked why he was being ticketed,
Mekdessie did not answer, and instead ordered him
to sign or be arrested. 1 Morris continued to ask and
refused to sign. Mekdessie then ordered him to place
his hands behind his back so he could be arrested.
Morris did not comply. Mekdessie placed Morris in a
headlock (Mekdessie called it a “brachial stun”) and
took him to the ground.
Morris remembers little after this, but at some
point he was tased, handcuffed, and placed in the
back of a police car, though in what order he is not
sure. A different officer, who arrived after the melee
began—Officer Brandon LeBlanc—was the one who
tased Morris. A brief video of the tasing appears to
indicate that Morris was already in handcuffs when
the tasing occurred. When Morris arrived at the
Jefferson Parish Correction Center he was
immediately rerouted to the hospital with a broken
jaw.
Eventually Morris was charged with speeding,
driving with an expired tag, resisting a police officer,
and battery of a police officer. He entered a pretrial
diversion plan and the charges were dismissed.
Because the excessive force claim arising from the
dispute between Morris and Mekdessie was dismissed on
summary judgment, we take the facts in the light most
favorable to Morris. Tolan v. Cotton, 572 U.S. 650, 657 (2014).
1

5a
Morris later sued Officers Mekdessie, LeBlanc, and a
third officer as well as the city of Gretna, its police
department, and its chief of police for unlawful
arrest, false imprisonment, excessive force, battery,
and improper training and supervision. The district
court granted summary judgment on almost all of
these claims but it sent the claims of excessive force
and battery against Officer LeBlanc to trial. At the
end of a two-day trial, the jury returned a verdict in
favor of LeBlanc.
II.
Though Morris’s claims against LeBlanc arising
from the tasing survived summary judgment and
reached a jury, he contends that “the jury failed to
get the facts right.” He does not put it in these
terms, but his argument that the facts required a
verdict in his favor is tantamount to arguing that he
proved battery and excessive force so completely that
the court should have held that he prevailed as a
matter of law. Fed. R. Civ. P. 50(a), (b). But Morris
did not seek judgment as a matter of law in the
district court (he only sought and was denied a new
trial, a ruling he does not appeal), so we are
powerless to consider whether a directed verdict
would have been appropriate. Unitherm Food
Systems, Inc. v. Swift-Eckrich, Inc., 546 U.S. 394,
405 (2006); Price v. Rosiek Const. Co., 509 F.3d 704,
707 (5th Cir. 2007).
Even if we could, it is difficult to see how the
fact-intensive nature of this excessive force claim
would be amendable to a directed verdict. LeBlanc
testified that when he arrived on the scene Morris

6a
was punching Mekdessie, so he tackled Morris to get
him off Mekdessie. LeBlanc then got off Morris, but
saw that Morris was attempting to stand up. This
prompted LeBlanc to warn Morris that he was going
to use a taser. When the warning went unheeded,
LeBlanc used the taser. The initial tasing did not
stop Morris from talking and continuing to get off
the ground, so he deployed it multiple times. Morris
vigorously disputes LeBlanc’s testimony, but the
jury gets to decide credibility. And the video was not
so definitive that it would mandate a verdict in
Morris’ favor.
III.
A.
Morris also challenges the pretrial dismissal of
his other claims. The district court held that Heck v.
Humphrey, 512 U.S. 477 (1994), barred the false
arrest, unlawful seizure, and malicious prosecution
claims, which were based on the arrest of Morris and
the criminal charges against him. Heck does not
allow a civil rights lawsuit to be an alternative
vehicle for to a criminal case for challenging law
enforcement decisions that resulted in arrest or
prosecution unless the criminal case was resolved “in
favor of the accused.” Id. at 484. Morris completed a
pretrial diversion program. A division program is
essentially a middle ground between conviction and
exoneration. Gilles v. Davis, 427 F.3d 197, 211 (3d
Cir. 2005) (explaining the procedure as a
“compromise” because although there is not guilty
plea, a diversion imposes burdens on the defendants
“not consistent with innocence”). Even though it is

7a
not a guilty plea, defendants entering diversion
programs “acknowledge responsibility for their
actions.” Taylor v. Gregg, 36 F.3d 453, 455 (5th Cir.
1994) overruled on other grounds by Castellano v.
Fragozo, 352 F.3d 939 (5th Cir. 2003) (en banc). As
such, “[e]ntering a pre-trial diversion agreement
does not terminate the criminal action in favor of the
criminal defendant ….” Id. at 456. Heck thus applies
and dismissal was appropriate under our decadesold rule. See id. (citing Singleton v. City of New York,
632 F.2d 185 (2d Cir. 1980)).
B.
Morris next argues that the district court erred
by granting summary judgment to Mekdessie on the
excessive force claim based on their physical
encounter. Heck does not bar this claim because a
challenge to the means of arrest does not challenge
the validity of the arrest. Bush v. Strain, 513 F.3d
492, 498 (5th Cir. 2008). The district court
nonetheless found no evidence supported the
excessive force claim because it believed the
undisputed evidence was that Morris battered
Mekdessie before Mekdessie used any force. We are
not sure the record supports a finding that Morris
struck first, let alone that there is no dispute about
that. But the evidence is undisputed that Morris
resisted arrest and refused to put his hands behind
his back. That resistance justified Mekdessie to use
a reasonable amount of force to effectuate the arrest.
Deville v. Marcantel, 567 F.3d 156, 167–68 (5th Cir.
2009). Morris fails to show that the level of force
Mekdessie
applied
was
constitutionally
unreasonable in light of clearly established law, as

8a
he must to overcome Mekdessie’s qualified immunity
defense. See Griggs v. Brewer, 841 F.3d 308, 314–15
(5th Cir. 2016) (granting qualified immunity to an
officer conducting a similar takedown maneuver).
We affirm on this alternative basis. 2
C.
Because the police officers did not commit any
constitutional violations, the City of Gretna and its
chief of police, Arthur Larson, cannot be liable for
failure to supervise and train the city’s police. The
theory for that liability is that the failure to
supervise or train was a moving force behind an
individual officer’s unconstitutional use of force. The
jury’s verdict favoring Officer LeBlanc, combined
with the proper grant of summary judgment in favor
of Officer Mekdessie, means there is no underlying
constitutional violation. That means there can be no
municipal liability or improper supervision claim.
Whitley v. Hanna, 726 F.3d 631, 648–49 (5th Cir.
2013); Piotrowski v. City of Houston, 237 F.3d 567,
578 (5th Cir. 2001).
***
The judgement is AFFIRMED.
Morris also makes several arguments that summary
judgment on this claim was inappropriate because he was
stopped without probable cause and should not have been
arrested. In essence, he argues that he only resisted arrest
(triggering the response from Mekdessie) because he was
falsely arrested. Because this chain of causation relies on a
false arrest, Heck bars the argument.
2

9a
APPENDIX B
ORDER AND REASONS, NO. 14-1741 (D.C. LA.
FEB. 26, 2016)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
SEANTREY MORRIS

CIVIL ACTION

VERSUS

NO. 14-1741

JOSEPH MEKDESSIE, ET AL.

SECTION “N” (4)

ORDER AND REASONS
Presently before the Court is the Defendants’
“Motion for Summary Judgment (Qualified
Immunity) on Behalf of Joseph Mekdessie, Brandon
Leblanc, Daniel Swears, the City of Gretna, and
Arthur S. Lawson” (Rec. Doc. 42); Plaintiff Seantrey
Morris’ “Memorandum in Opposition” (Rec. Doc. 49);
Defendants’ “Reply Memorandum in Support of
Motion for Summary Judgment” (Rec. Doc. 55);
Defendants’
“Supplemental
Memorandum
in
Support of Motion for Summary Judgment” (Rec.
Doc.
70);
and
Plaintiff’s
“Supplemental
Memorandum in Opposition to the Supplemental
Memorandum in Support of Defendants’ Motion for
Summary Judgment” (Rec. Doc. 75). The Court rules
on the motion as stated herein.

10a
I. Background
On the evening of July 31, 2013, Plaintiff
Seantrey Morris (“Morris”) was the subject of a
traffic
stop
by
Officer
Joseph
Mekdessie
(“Mekdessie”) of the City of Gretna (Louisiana)
Police Department. Prior to the traffic stop,
Mekdessie, in a marked police car, had driven up
behind Morris, who was driving in a 2006 Pontiac
GTO, at a red light. At the traffic light, Mekdessie
observed Morris’ brake tag, or Motor Vehicle
Inspection (“MVI”) sticker, to be expired. Then, upon
the light turning green, Mekdessie watched as
Morris accelerated rapidly and reached a speed of
45 miles-per-hour in a 35 miles-per-hour zone.
Thereafter, Mekdessie pulled Morris over. Morris
then provided the officer with proof of insurance that
had expired and registration for a vehicle other than
the GTO that he was driving.
As the traffic stop unfolded, Morris was able to
produce proof of valid insurance on his mobile device
and locate proper vehicle registration. After Morris
had exited his vehicle to provide Officer Mekdessie
with the vehicle registration, Mekdessie ordered
Morris to wait behind the GTO as the officer
completed paperwork in his squad car. Morris
complied as instructed, until Mekdessie returned
with traffic tickets for speeding and operating a
vehicle with an expired brake tag.
The parties debate much of what ensued.
According to portions of Morris’ deposition
testimony, as Officer Mekdessie presented the ticket,
Morris asked the officer why he was being ticketed

11a
(Rec. Doc. 49-1 at p. 45). Mekdessie refused to
explain, only instructing Morris that the ticket was
not an admission of guilt and that he needed to sign
it. (Id.). When Morris repeated the question,
Mekdessie informed him that he would be arrested
Morris if he did not sign. (Id. at p. 46). Disregarding
this warning, Morris persisted in his questioning to
no avail. (Id.). At some point, Mekdessie told Morris
to put his hands behind his back because he was
being arrested; Morris did not comply. (Id.).
A physical confrontation broke out, with
Mekdessie taking Morris to the ground in a
headlock. (Id. at p. 48). Thereafter, Morris
remembers little, except that he was tased an
unknown number of times, handcuffed, and placed in
the back of a police car, but not necessarily in that
order. (Id. at 74, 113). Morris also does not
remember whether he was on the ground or on his
feet when tased. (Id. at 73-75). After the arrest,
Officer Daniel Swears (“Swears”) transported Morris
to the Jefferson Parish Correctional Center
(“JPCC”). (Rec. Doc. 49 at p. 11). Upon a nurse’s
evaluation at the JPCC, Officer Swears then
transported Morris to University Hospital, where he
underwent surgery for a broken jaw. (Rec. Doc. 49 at
p. 12).
Morris was charged with violating three City of
Gretna ordinances: (1) 90-1:63A.1 [Speeding 1-10
MPH over]; (2) 90-1:1304 [No Brake Tag]; (3) 16-65
[Resisting a Police Officer]; and (4) 16-65.5 [Battery
on a Police Officer]. (Rec. Doc. 42-2 at p. 39).
Subsequently, Morris voluntarily completed a
pretrial diversion program, and the charges were

12a
dismissed. He has since brought the instant lawsuit
against the defendants for claims of unlawful arrest,
false imprisonment, excessive force, battery,
municipal liability, and improper training and
supervision. (Rec. Doc. 1).
II. Law and Analysis
Pursuant to Rule 56(a) of the Federal Rules of
Civil Procedure, summary judgment shall be granted
“if the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to a judgment as a matter of law.” Fed. R.
Civ. P. 56(a). The materiality of facts is determined
by the substantive law’s identification of which facts
are critical and which facts are irrelevant. Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct.
2505, 2510, 91 L. Ed.2d 202 (1986). A fact is material
if it “might affect the outcome of the suit under the
governing law.” Id.
If the dispositive issue is one on which the
nonmoving party will bear the burden of proof at
trial, the moving party may satisfy its summary
judgment burden by merely pointing out that the
evidence in the record contains insufficient proof
concerning an essential element of the nonmoving
party’s claim. See Fed. R. Civ. P. 56(c); Celotex Corp.
v. Catrett, 477 U.S. 317, 325, 106 S. Ct. 2548, 2554,
91 L. Ed. 2d 265 (1986); see also Lavespere v. Liberty
Mut. Ins. Co., 910 F.2d 167, 178 (5th Cir. 1990).
Once the moving party carries its burden pursuant
to Rule 56(a), the nonmoving party must “go beyond
the pleadings and by [his] own affidavits, or by the
‘depositions, answers to interrogatories, and

13a
admissions on file,’ designate ‘specific facts showing
that there is a genuine issue for trial.’” Celotex, 477
U.S. at 324, 106 S. Ct. 2553; see also Matsushita
Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S.
574, 587, 106 S. Ct. 1348, 1356, 89 L. Ed.2d 538
(1986); Auguster v. Vermillion Parish School Bd.,
249 F.3d 400, 402 (5th Cir. 2001). An issue is
considered genuine if the evidence is sufficient for a
reasonable jury to return a verdict for the
nonmoving party. Goodson v. City of Corpus Christi,
202 F.3d 730, 735 (5th Cir. 2000).
A. Heck v. Humphrey’s Favorable
Termination Rule
The Supreme Court of the United States, in Heck
v. Humphrey, held:
[I]n order to recover damages for allegedly
unconstitutional conviction or imprisonment,
or for other harm caused by actions whose
unlawfulness would render a conviction or
sentence invalid, a § 1983 plaintiff must
prove that the conviction or sentence has
been reversed on direct appeal, expunged by
executive order, declared invalid by a state
tribunal
authorized
to
make
such
determination, or called into question by a
federal court’s issuance of a writ of habeas
corpus …. A claim for damages bearing that
relationship to a conviction or sentence that
has not been so invalidated is not cognizable
under § 1983. Thus, when a state prisoner
seeks damages in a § 1983 suit, the district
court must consider whether a judgment in

14a
favor of the plaintiff would necessarily imply
the invalidity of his conviction or sentence; if
it would, the complaint must be dismissed
unless the plaintiff can demonstrate that the
conviction or sentence has already been
invalidated. But if the district court
determines that the plaintiff’s action, even if
successful, will not demonstrate the
invalidity of any outstanding criminal
judgment against the plaintiff, the action
should be allowed to proceed, in the absence
of some other bar to the suit.
512 U.S. 477, 486-87, 114 S.Ct. 2364 (1994); see also
DeLeon v. City of Corpus Christi, 488 F.3d 649, 652
(5th Cir. 2007) (“[A] civil tort action, including an
action under section 1983, is not an appropriate
vehicle for challenging the validity of outstanding
criminal judgments.”) (citing Heck, 512 U.S. at 486).
Pursuant to Heck, when addressing tort claims
brought against an arresting officer, the court “must
first consider whether a judgment in favor of the
plaintiff would necessarily imply the invalidity of his
conviction or sentence. If so, the claim is barred
unless the conviction has been reversed or declared
invalid.” Hainze v. Richards, 207 F.3d 795, 798 (5th
Cir. 2000) (citing Heck, 512 U.S. at 487) (internal
quotation omitted).
The
Fifth
Circuit
considers
voluntary
participation in a pretrial diversion program to be a
“conviction” for purposes of Heck. See Elphage v.
Gautreaux, 969 F.Supp.2d 493, 506 (M.D.La. Sept. 3,
2013) (“The Fifth Circuit has joined the Third and
Second Circuits in treating pretrial intervention

15a
programs as convictions under Heck.”). Moreover,
the dismissal of charges after the completion of a
pretrial program does not constitute a termination of
the criminal proceedings in favor of the plaintiff. See
Evans v. Ball, 168 F.3d 856, 859 (5th Cir. 1999)
(“The rule in this circuit … is that proceedings
terminate in favor of the accused only when they
affirmatively indicate that he is not guilty.”),
abrogated on other grounds by Castellano v. Fragozo,
352 F.3d 939 (5th Cir. 2003). In Elphage, the
plaintiff was charged with resisting an officer, but
entered and completed a pretrial intervention
program that resulted in the dismissal of the
charges. 969 F.Supp.2d at 507. She then brought a
§ 1983 claim for wrongful arrest. Id. Finding her
participation and completion of the pretrial program
to qualify under Heck as a conviction, the court
proceeded to bar the plaintiff’s § 1983 claim. Id. To
allow the plaintiff to assert her civil claim, reasoned
the court, “would undermine her participation in,
and completion of, the pretrial intervention
program” because the plaintiff’s “voluntary
participation in [the program] with regard to the
charge of resisting arrest necessarily implies that
[the deputy] conducted a lawful arrest, and
therefore, had probable cause for arresting her.” Id.
at 507-08. Furthermore, the Elphage court noted
that barring the plaintiff’s contradictory § 1983
claim served sound public policy—that is, it allows
prosecutors to make use of pretrial intervention
programs without having to fear criminal defendants
returning to the courthouse steps as a civil plaintiffs
eager to sue. See id. at 508 (citing Taylor v. Gregg,
36 F.3d 453, 456 (5th Cir. 1994).

16a
Morris argues that this Court should not follow
the lead of other district courts in this Circuit
because the City of Gretna’s pretrial diversion
program is distinguishable from those they
considered. (Rec. Doc. 49 at p. 23). In particular,
Morris takes issue with the short duration of
Gretna’s pretrial program and the lack of
supervision it entails. However, Morris has not
provided any case law to explain why these features
make Gretna’s pretrial program, and not others,
insufficient for Heck purposes. The Court is
unpersuaded. While the burden imposed on
participants varies between programs of the many
municipalities, Gretna’s program is similar to others
that have qualified under Heck in that each has
certain requirements that must be fulfilled before
charges are dismissed. In Morris’ case, the charges
were dismissed only once he fulfilled those
requirements, which included the payment of a $550
fee. Mandating a lengthy probationary period, or
extensive court supervision, would do little to change
the legal implications of voluntary participation in a
pretrial diversion program, which courts in this
circuit have unanimously found to be equivalent to a
conviction under Heck. See e.g., Elphage v.
Gautreaux, 969 F.Supp.2d 493, 506 (M.D.La. Sept. 3,
2013) and Bates v. McKenna, 2012 WL 3309381 at *5
(W.D.La. Aug.13, 2012). Accordingly, the Court finds
that Morris’ participation in Gretna’s diversion
program constitutes a conviction under Heck.
Because the conviction has not been reversed on
direct appeal, expunged, declared invalid or
otherwise called into question in a habeas
proceeding, Morris’ § 1983 claims may proceed only

17a
if the Court determines that a judgment in his favor
will not necessarily call into question the validity of
his convictions. See DeLeon, 488 F.3d at 652.
1. False Arrest, Unlawful Seizure, False
Imprisonment and Malicious
Prosecution
Applying the above test, the Court finds that
Morris’ claims of false arrest, unlawful seizure, false
imprisonment, and malicious prosecution are barred
under Heck. At their core, these claims challenge the
arrest, detention, and charging of Morris. To allow
these claims to proceed would necessarily imply the
invalidity of the convictions on the charges of
speeding, no brake tag, resisting an officer, and
battery of a police officer. Accordingly, these claims,
brought against Defendants Mekdessie, LeBlanc,
and Swears, are hereby dismissed.
2. Excessive Force and Battery under
Heck
Morris’ claims for excessive force and battery,
asserted against Defendants Mekdessie, LeBlanc,
and Swears, in their personal capacities, are not
automatically barred under Heck, because a § 1983
claim of excessive force does not necessarily call into
question the validity of his “resisting arrest”
conviction. See e.g. Bush v. Strain, 513 F.3d 492, 498
(5th Cir. 2008) (“[A] claim that excessive force
occurred after the arrestee has ceased his or her
resistance would not necessarily imply the invalidity
of a conviction for the earlier resistance.”). In this
case, while Morris’ recollection of the circumstances

18a
of the arrest is questionable, grainy video footage
taken from the taser itself shows that Morris was
possibly handcuffed and submissive at the time of
tasing, which may be considered as possible
corroboration of the claim that the officers exerted
excessive force after the arrest. Therefore, the Court
finds that the excessive force claim is not barred per
se under Heck. The Court finds the same for Morris’
battery claim, which the defendants do not address.
B. Qualified Immunity, Excessive Force,
and Battery
Officers Mekdessie, LeBlanc, and Swears have
also asserted a qualified immunity defense to Morris’
excessive force claim. The Fourth Amendment
provides a clearly established right to be free from
excessive force during a seizure. Poole v. City of
Shreveport, 691 F.3d 624, 627 (5th Cir.2012). “To
overcome the officers’ claim of qualified immunity on
his claim of excessive force, [the plaintiff] must show
‘(1) an injury, (2) which resulted directly and only
from a use of force that was clearly excessive, and (3)
the
excessiveness
of
which
was
clearly
unreasonable.’” Id. at 628 (quoting Ontiveros v. City
of Rosenberg, 564 F.3d 379, 382 (5th Cir.2009)). To
the extent possible, the actions of each officer are to
be evaluated separately to determine whether the
use of force was clearly excessive and clearly
unreasonable. Poole, 691 F.3d at 628.
In this case, it is undisputed that Morris
suffered, at a minimum, a fractured jaw in the
altercation with the officers. The officers have not
argued that Morris sustained the injury at some

19a
time other than during the encounter, and there is
some evidence to suggest that it occurred as a result
of the tasing. Furthermore relying again, on the
video footage from the taser, the Court finds that the
evidence creates a genuine factual dispute as to
whether the tasing of Morris was unlawful.
Ultimately,
the court
concludes
that
the
reasonableness of the applied force is a question ripe
for the jury.
The Court now turns its attention to the
question which of the officers are responsible for
force that could be deemed excessive. As the
undisputed operator of the taser, Officer LeBlanc is
clearly one such officer. Officer Swears, on the other
hand, is not, as there is not so much as an allegation
that he participated in the physical confrontation,
and Morris has provided no legal theory for finding
him otherwise liable. With regard to Officer
Mekdessie, however, the answer requires a more
complex analysis. As discussed supra, under Heck, it
is beyond dispute that Morris resisted arrest and
battered Officer Mekdessie. Officer Mekdessie was,
therefore, justified in exerting force, within reason,
upon Morris to effectuate the arrest. The taser video,
which forms the crux of Morris’ excessive force claim,
does not implicate Mekdessie or his actions. There is
no other evidence that Officer Mekdessie continued
to exert force, excessive or not, after Morris had been
restrained or otherwise submitted to authority. 1 As
As the explanation for his fractured jaw, Morris argues
that he was restrained in handcuffs and standing when tased,
which caused him to hit the ground with sufficient force to
cause the injury. (Rec. Doc. 49 at p. 11). This version of events
1

20a
such, there exists no evidentiary basis for finding the
force exhibited by Mekdessie to have been excessive.
Accordingly, the claim may proceed only against
Officer LeBlanc.
As a corollary to his constitutional claim of
excessive force, Morris has also brought claims
against the officers for battery under state law.
“Excessive force transforms ordinarily protected use
of force into an actionable battery” under Louisiana
law. Penn v. St. Tammany Parish Sheriff’s Office,
02-0893 (La.App. 1 Cir. 4/2/03) 843 So.2d 1157, 1161.
Therefore, the Court finds that Morris’ state law
battery claim also survives, but, again, only as
against Officer LeBlanc.
C. Municipal Liability
Morris also asserts a § 1983 claim for municipal
liability against the City of Gretna and claims for
lack of supervision and training against the Gretna
Police Department and Arthur Larson, in his official
capacity as chief of police for the City of Gretna.
Municipal liability under section 1983 requires proof
of three elements: (1) a policymaker; (2) an official
policy; and (3) a violation of constitutional rights
whose “moving force” is the policy or custom.
Piotrowski v. City of Houston, 237 F.3d 567, 578 (5th
Cir. 2001) (citing Monell v. Dep’t. of Social Services,
436 U.S. 658, 694, 98 S.Ct. 2018 (1978)). Morris’
claim is premised on an unwritten policy allegedly
supports the conclusion that the force applied by Officer
Mekdessie was not excessive.

21a
followed by the Gretna Police Department, which
established ticket and arrest quotas for its patrol
officers. As evidence that the policy’s existed, Morris
relies on the deposition of Officer Swears, wherein
he testifies to being ordered by a supervisor to fulfill
the quota requirements. (Rec. Doc. 49-3 at p. 2). 2
Even assuming the existence of this policy, Morris
has not shown how his excessive force claim and the
quota policy are related, such that the policy was the
moving force behind Officer LeBlanc’s use of
excessive force. Moreover, Morris fails to explain
how the purported link between the two withstands
the fact that he was speeding when pulled over and
refused to comply with the arresting officer’s
commands. Therefore, Morris’ municipal liability
claim against the City of Gretna is dismissed.
D. Lack of Supervision and Training
Morris’ final claim is for lack of supervision and
training against the Gretna Police Department and
Arthur Larson, in his official capacity as Chief of
Police for the City of Gretna. Morris cites no case law
in support of this claim, which is also based on the
alleged existence of the quota policy, discussed
above. Based on the quota policy, Morris merely
speculates that there could be other unwritten
It appears the parties have not provided the Court with a
cited portion of the deposition transcript wherein Officer
Swears discusses the quota policy. Because the Court does not
have Officer Swear’s entire testimony on the topic, it cannot
verify the accuracy of the defendants’ assertion that the policy
was not in effect at the time of the arrest, if it existed at all.
(See Rec. Doc. 49-3, at p. 8-24).
2

22a
policies followed by the police department that led to
him being tased in an allegedly unlawful fashion.
Beyond this impuissant inference drawn by Morris,
he offers no evidence that Chief Larson or the
Gretna Police Department provided inadequate
training or supervision. Therefore, on the showing
made by Morris, the claim of lack of supervision and
training is dismissed, for want of evidentiary
support.
III.

Conclusion

For the foregoing reasons, IT IS ORDERED
that Defendants’ Motion for Summary Judgment
(Rec. Doc. 42) is DENIED IN PART and
GRANTED IN PART.
The Motion is DENIED to the extent that the
claims asserted against Defendant Brandon LeBlanc
for excessive force and battery have survived
summary judgment.
The Motion is GRANTED to the extent that all
other claims are DISMISSED with prejudice.
New Orleans, Louisiana, this 25th day of
February, 2016.
/s/ Kurt D. Engelhardt
KURT D. ENGELHARDT
United States District Judge

